APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Amended Opinion in the
United States Court of Appeals for the
Ninth Circuit
(December 23, 2019) . . . . . . . . . . . App. 1
Appendix B Opinion in the United States Court of
Appeals for the Ninth Circuit
(October 16, 2019) . . . . . . . . . . . . App. 17
Appendix C Order in the United States District
Court, District of Nevada
(March 26, 2018) . . . . . . . . . . . . . App. 32

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15691
D.C. No. CV 14-0320 MMD
[Filed December 23, 2019]
____________________________________
DONALD WALDEN, JR.; NATHAN
)
ECHEVERRIA; AARON DICUS; BRENT
)
EVERIST; TRAVIS ZUFELT; TIMOTHY
)
RIDENOUR; DANIEL TRACY, on
)
behalf of themselves and all others
)
similarly situated,
)
Plaintiffs-Appellees,
)
)
v.
)
)
STATE OF NEVADA; NEVADA
)
DEPARTMENT OF CORRECTIONS,
)
Defendants-Appellants.
)
___________________________________ )
ORDER AND AMENDED OPINION
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, Chief District Judge, Presiding

App. 2
Argued and Submitted March 13, 2019
San Francisco, California
Filed October 16, 2019
Amended December 23, 2019
Before: Eugene E. Siler,* A. Wallace Tashima,
and M. Margaret McKeown, Circuit Judges.
Order;
Opinion by Judge Tashima
SUMMARY**
Sovereign Immunity
The panel filed (1) an order withdrawing its opinion
and substituting in its place an amended opinion,
denying a petition for panel rehearing, and denying on
behalf of the court a petition for rehearing en banc; and
(2) an amended opinion affirming the district court’s
holding that the State of Nevada waived its Eleventh
Amendment sovereign immunity as to plaintiffs’ Fair
Labor Standards Act claims when the State removed
the case from state court to federal court.
Extending the holding of Embury v. King, 361 F.3d
562 (9th Cir. 2004), the panel held that a State that
removes a case to federal court waives its immunity
from suit on all federal-law claims in the case,
*

The Honorable Eugene E. Siler, United States Circuit Judge for
the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
including those federal-law claims that Congress failed
to apply to the states through unequivocal and valid
abrogation of their Eleventh Amendment immunity.
COUNSEL
Richard I. Dreitzer (argued), James T. Tucker, and
Sheri Thome, Wilson Elser Moskowitz Edelman &
Dicker LLP, Las Vegas, Nevada; Aaron Ford, Attorney
General; Heidi Parry Stern, Solicitor General; Steve
Shevorski, Ketan D. Bhirud, Theresa M. Haar; Office
of the Attorney General, Las Vegas, Nevada; for
Defendants-Appellants.
Joshua D. Buck (argued), Mark R. Thierman and Leah
L. Jones, Thierman Buck LLP, Reno, Nevada, for
Plaintiffs-Appellees.
ORDER
The Opinion filed October 16, 2019, and reported at
941 F.3d 350, is withdrawn and the Amended Opinion
filed concurrently with this Order is substituted in its
place.
With the filing of the Amended Opinion, the panel
has voted to deny the petition for panel rehearing.
Judge McKeown votes to deny the petition for
rehearing en banc and Judges Siler and Tashima so
recommend. The full court has been advised of the
petition for rehearing en banc and no judge of the court
has requested a vote on en banc rehearing. See Fed. R.
App. P. 35(f). The petition for panel rehearing and the
petition for rehearing en banc are denied. No further
petitions for panel rehearing or rehearing en banc will
be entertained.

App. 4
OPINION
TASHIMA, Circuit Judge:
Plaintiffs-Appellees (“Plaintiffs”) are a group of
correctional officers who allege violations of the Fair
Labor Standards Act (“FLSA”) by DefendantsAppellants State of Nevada and the Nevada
Department of Corrections (together, “Nevada”).
Nevada removed the case from state court to federal
court, then moved for judgment on the pleadings based
on state sovereign immunity from suit. We have
previously held that a State’s removal of a suit from
state to federal court waives state sovereign immunity
from suit on certain federal-law claims. Embury v.
King, 361 F.3d 562 (9th Cir. 2004). But Embury’s
holding did not cover federal-law claims that Congress
did not apply to the states through unequivocal and
valid abrogation of their Eleventh Amendment
immunity. Id. at 566 n.20. We now hold that a State
that removes a case to federal court waives its
immunity from suit on all federal-law claims in the
case, including those federal-law claims that Congress
failed to apply to the states through unequivocal and
valid abrogation of their Eleventh Amendment
immunity.
BACKGROUND
Plaintiffs allege that Nevada has not compensated
them for time that they spent working before or after
scheduled shifts at state prisons and correctional
facilities. Plaintiffs allege wage and overtime claims
under the FLSA, failure to pay minimum wages under
Nevada’s Constitution, failure to pay overtime as

App. 5
required by Nev. Rev. Stat. § 284.180, and breach of
contract.
Plaintiffs filed this action in state court. Nevada
removed the case to federal court and then answered
the complaint. In its answer, Nevada pleaded the
affirmative defense that “Defendant is immune from
liability as a matter of law,” but did not explicitly
mention state sovereign immunity or the Eleventh
Amendment. Upon Plaintiffs’ motion, the district court
granted conditional certification of the FLSA collective
action and ordered notice be sent to all current and
former non-exempt hourly paid employees who were
employed by the Nevada Department of Corrections as
correctional officers at any time from May 12, 2011 to
the date of the order (March 16, 2015). In total, 542
current and former employees have opted into this
action.
On March 1, 2018, the district court sua sponte
requested supplemental briefing on the issue of
whether “the doctrine of state sovereign immunity
[applied] to the FLSA claims against the State of
Nevada as brought in federal court.” This issue had not
been raised at all until this point of the litigation,
almost four years after the complaint was filed and
after significant discovery had been completed,
notwithstanding the affirmative defense Nevada raised
in its answer, that “Defendant is immune from liability
as a matter of law.” In that order, the district court
noted that although the FLSA confers subject-matter
jurisdiction in federal court, the district court might be
“barred from adjudicating the FLSA claims and this
case should be remanded” because “[u]nder Nev. Rev.

App. 6
Stat. § 41.031(3), the state of Nevada has explicitly
refused to waive its sovereign immunity in suits
brought by state citizens in federal court.”
After supplemental briefing, the district court held
that the State had waived its sovereign immunity as to
Plaintiffs’ FLSA claims, and denied Nevada’s motion to
dismiss those claims. The district court’s discussion of
Nevada’s waiver of sovereign immunity was limited to
a short paragraph:
After reviewing the supplemental briefs . . . , the
Court is convinced that Nevada has waived its
sovereign immunity in this Court. The Supreme
Court has held that a state’s removal of suit to
federal court constitutes a waiver of its Eleventh
Amendment immunity. Lapides v. Bd. of Regents
of Univ. Sys. of Georgia, 535 U.S. 613, 616
(2002). Here, the State of Nevada removed this
action from state court. Therefore, it has waived
its sovereign immunity.
The district court also denied Nevada’s motion to
dismiss the FLSA claims, but dismissed Plaintiffs’ Nev.
Rev. Stat. § 284.180 and breach of contract claims. The
parties then stipulated to the dismissal of Plaintiffs’
minimum wage claim under Nevada’s Constitution,
leaving only the FLSA claims which are at issue on this
appeal.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction under the collateral order
doctrine of 28 U.S.C. § 1291. The denial of a State’s
motion for judgment on the pleadings on the grounds of
Eleventh Amendment immunity, although an

App. 7
interlocutory order, need not await a final judgment to
be appealable. Phiffer v. Columbia River Corr. Inst.,
384 F.3d 791, 792 (9th Cir. 2004).
Under the collateral order doctrine, we have
appellate jurisdiction under § 1291 to consider a State’s
claims of immunity from suit, but there is no such
appellate jurisdiction to consider claims of immunity
from liability. Taylor v. Cty. of Pima, 913 F.3d 930, 934
(9th Cir. 2019). Under Puerto Rico Aqueduct & Sewer
Authority v. Metcalf & Eddy, Inc., 506 U.S. 139, 147
(1993), an ordinary claim of Eleventh Amendment
immunity encompasses a claim of immunity from suit.
But when a State defendant asserting immunity
declares that “it was asserting only immunity from
liability,” then the collateral-order doctrine of § 1291
does not apply and there is no appellate jurisdiction.
Taylor, 913 F.3d at 934. Nevada’s briefing is not clear
whether it is asserting only immunity from liability or
also immunity from suit, as Nevada appears to use
these terms interchangeably. But Nevada clarified at
oral argument that it is in fact asserting both
immunity from liability and immunity from suit.
Because Nevada asserts both immunity from liability
and immunity from suit, we have jurisdiction to hear
the appeal.1 See id.

1

As explained above, because we have interlocutory appellate
jurisdiction only of “claims of immunity from suit,” and not of
“claims of immunity from liability,” the following discussion – and
holding – applies only to the former claim of immunity from suit.
We express no opinion on the claim of immunity from liability.

App. 8
The existence of sovereign immunity under the
Eleventh Amendment is a question of law reviewed de
novo. Ariz. Students’ Ass’n v. Ariz. Bd. of Regents, 824
F.3d 858, 864 (9th Cir. 2016). Whether immunity has
been waived is also a question of law reviewed de novo.
Sierra Club v. Whitman, 268 F.3d 898, 901 (9th Cir.
2001).
DISCUSSION
The Eleventh Amendment grants a State immunity
from suit in federal court by citizens of other states,
U.S. Const. amend. XI, and by its own citizens as well,
Hans v. Louisiana, 134 U.S. 1 (1890). The question
before us is whether Nevada waived its sovereign
immunity by removing Plaintiffs’ FLSA claims to
federal court.
States can waive their Eleventh Amendment
sovereign immunity from suit in state and federal
court. Lapides v. Bd. of Regents of Univ. Sys. of Ga.,
535 U.S. 613, 618–21 (2002). A State’s decision
voluntarily to invoke the jurisdiction of a federal court
by removing an action from state court to federal court
can waive Eleventh Amendment immunity, but this
general “voluntary invocation” principle does not apply
in all circumstances. Id. Many states statutorily waive
their immunity from suit on state-law claims in state
court. See, e.g., Nev. Rev. Stat. § 41.031. The Supreme
Court has held that, when a State that has enacted one
of these statutes voluntarily removes a suit on statelaw claims from state court to federal court, that State
waives its Eleventh Amendment immunity from suit.
Lapides, 535 U.S. at 618–21.

App. 9
In Lapides, a plaintiff brought a § 1983 and state
tort law action against the State of Georgia in state
court. Id. at 616. The Georgia legislature had passed a
statute expressly waiving Georgia’s sovereign
immunity to state law claims filed in state court. See
id.; Ga. Code Ann. § 50-21-23. Georgia removed the
plaintiff’s suit to federal court and moved to dismiss on
the ground of Eleventh Amendment immunity, even
though it conceded that its own state statute had
waived its sovereign immunity from state-law claims in
state court. Lapides, 535 U.S. at 616.
At the outset of its opinion, the Supreme Court
determined that the sole federal claim in Lapides,
which sought monetary damages under 42 U.S.C.
§ 1983, was invalid because Georgia was “not a ‘person’
against whom a § 1983 claim for money damages might
be asserted.” Id. at 617. Consequently, the Supreme
Court began its opinion by “limit[ing]” its decision to
the peculiar procedural circumstances of that
case—that is, “to the context of state-law claims, in
respect to which the State has explicitly waived
immunity from state-court proceedings.” Id.; see also
id. at 617–18 (emphasizing that the Court did not
“need [to] address the scope of waiver by removal in a
situation where the State’s underlying sovereign
immunity from suit has not been waived or abrogated
in state court”).
The Court discussed the consequences of Georgia’s
decision to remove the case:
It would seem anomalous or inconsistent for a
State both (1) to invoke federal jurisdiction,
thereby contending that the “Judicial power of

App. 10
the United States” extends to the case at hand,
and (2) to claim Eleventh Amendment
immunity, thereby denying that the “Judicial
Power of the United States” extends to the case
at hand.
Id. at 619. Observing that it had previously held that
a “State’s voluntary appearance in federal court
amounted to a waiver of its Eleventh Amendment
immunity,” id. (citing Clark v. Barnard, 108 U.S. 436,
447 (1883)), the Court reasoned that a State similarly
expresses its intent to “voluntarily invoke[ ] the federal
court’s jurisdiction” by “voluntarily agree[ing] to
remove the case to federal court.” Id. at 620. Unable to
discern “something special about removal or about this
case,” the Court concluded that the “general legal
principle requiring waiver” when a State voluntarily
invokes judicial authority “ought to apply” in order to
prevent states from “achiev[ing] unfair tactical
advantages.” Id. at 620, 621. Therefore, under Lapides,
a State that statutorily waives its immunity from suit
on state-law claims in state court also waives its
Eleventh Amendment immunity from suit on the same
state-law claims when it voluntarily removes a statelaw-claim case to federal court. Id. at 624.
The Ninth Circuit built on Lapides in Embury,
holding that a State’s removal of a suit from state court
to federal court waives Eleventh Amendment immunity
from suit for certain federal-law claims. In Embury, a
physician sued the Regents of the University of
California in state court for wrongful discharge, in
violation of his due process rights under the federal
and state Constitutions and in violation of state labor

App. 11
law. 361 F.3d at 563. After the State defendants
removed the case to federal court, the district court
dismissed the case with leave to amend. Id. Embury
then amended his complaint, and defendants again
moved to dismiss, this time asserting Eleventh
Amendment immunity. Id. We “conclude[d] that the
rule in Lapides applies to federal claims as well as to
state law claims and to claims asserted after removal
as well as to those asserted before removal.” Id. at 564.
Noting that the defendants had conceded that they
were stuck with federal jurisdiction over Embury’s
state law claims, we reasoned:
Nothing in the reasoning of Lapides supports
limiting the waiver to the claims asserted in the
original complaint, or to state law claims only.
Indeed, it makes no sense that the State does
not object to having state law questions resolved
by a federal tribunal—where federal jurisdiction
cannot even be obtained but for federal claims
asserted in the same case—yet objects to federal
jurisdiction over the federal claims.
Id. The Embury court stated that it would “instead hold
to a straightforward, easy-to-administer rule in accord
with Lapides: Removal waives Eleventh Amendment
immunity.” Id. at 566.
This case would be definitively controlled by
Embury were it not for a footnote that contains an
important limitation to its holding; Embury expressly
did “not decide whether a removing State defendant
remains immunized from federal claims that Congress
failed to apply to the States through unequivocal and
valid abrogation of their Eleventh Amendment

App. 12
immunity.” Id. at 566 n.20. Congress’ enactment of the
FLSA did not abrogate a State’s sovereign immunity
from suit in federal court. Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 72–73 (1996); Quillen v. Oregon,
127 F.3d 1136, 1139 (9th Cir. 1997).2 Although many
FLSA protections apply to state employees, see Garcia
v. San Antonio Metro. Transit Auth., 469 U.S. 528
(1985), the Ninth Circuit has held that federal courts
lack jurisdiction over FLSA cases brought against
States in the absence of a waiver of immunity. Quillin,
127 F.3d at 1139. Therefore, this case falls within the
scope of Embury’s Footnote 20, meaning that neither
Lapides nor Embury entirely controls the outcome of
this issue. Because this case involves a statute that
Congress has not applied to the States through
unequivocal and valid abrogation, we are faced with an
issue of first impression in the Ninth Circuit.3

2

In Hale v. Arizona, 993 F.2d 1387 (9th Cir. 1993) (en banc), we
held that “Congress has made unmistakably clear its intention to
apply the FLSA to the States,” and, thus, had “abrogate[d] the
states’ Eleventh Amendment immunity.” Id. at 1391.
Subsequently, however, the Supreme Court held in Seminole Tribe
that “[t]he Eleventh Amendment restricts the judicial power under
Article III, and Article I cannot be used to circumvent the
constitutional limitations placed upon federal jurisdiction.” 517
U.S. at 72–73. Thus, because Hale is “clearly irreconcilable” with
Seminole Tribe, Hale’s holding has been abrogated by Seminole
Tribe. See Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en
banc).
3

Other circuits’ approaches to interpreting Lapides are not
uniform. “As a result of the tension between Lapides’s express
limitations on its own holding and [its] general language, courts
are divided on whether Lapides indicates that a State defendant’s
removal to federal court waives its Eleventh Amendment

App. 13
Relying on the reasoning of Lapides and Embury,
we now hold that a State defendant that removes a
case to federal court waives its immunity from suit on
all federal-law claims in the case, including those
claims that Congress failed to apply to the States
through unequivocal and valid abrogation of their
Eleventh Amendment immunity. Essentially, we
extend Embury’s “removal means waiver” rule to those
circumstances left open in Footnote 20. In Embury, we
indicated a very strong preference for a clear
jurisdictional rule. 361 F.3d at 566 (“Allowing a State
to waive immunity to remove a case to federal court,
then ‘unwaive’ it to assert that the federal court could
not act, would create a new definition of chutzpah. We
decline to give the State such unlimited leeway, and
instead hold to a straightforward, easy-to-administer
rule in accord with Lapides: Removal waives Eleventh
Amendment immunity.”). Even though Embury’s
footnote expressly left open the question of whether a
removing State defendant remains immunized from
certain federal claims like those under the FLSA,
Embury’s strong preference for a straightforward, easy-

immunity if the State has not waived its immunity to suit in state
court.” Bodi v. Shingle Springs Band of Miwok Indians, 832 F.3d
1011, 1019 (9th Cir. 2016) (discussing Lapides, but holding that its
waiver-through-removal reasoning does not apply in the context of
tribal immunity). Some circuits have simply opted for a narrow
reading of Lapides. See, e.g., Bergemann v. R.I. Dep’t of Envtl.
Mgmt., 665 F.3d 336, 341 (1st Cir. 2011). Others have read Lapides
to state a more general rule. See, e.g., Bd. of Regents of Univ. of
Wis. Sys. v. Phx. Int’l Software, Inc., 653 F.3d 448, 460–71 (7th Cir.
2011); Meyers ex rel. Benzing v. Texas, 410 F.3d 236, 242 (5th Cir.
2005); Estes v. Wyo. Dep’t of Transp., 302 F.3d 1200, 1205 n.1, 1206
(10th Cir. 2002).

App. 14
to-administer rule supports our holding that removal
waives Eleventh Amendment immunity for all federal
claims.
In the context of waiver of state-law claims in
federal court, we have held that, “Eleventh
Amendment immunity is an affirmative defense that
must be raised early in the proceedings to provide fair
warning to the plaintiff.” Aholelei v. Dep’t of Pub.
Safety, 488 F.3d 1144, 1147 (9th Cir. 2007) (internal
quotation marks omitted). “Express waiver is not
required; a state ‘waive[s] its Eleventh Amendment
immunity by conduct that is incompatible with an
intent to preserve that immunity.’” Id. (quoting Ariz. ex
rel. Indus. Comm’n v. Bliemeister (In re Bliemeister),
296 F.3d 858, 861 (9th Cir. 2002)). Here, Nevada only
points to one place in the first four years of active
litigation where it arguably raised the issue of state
sovereign immunity: the line in the Answer that said,
“Defendant is immune from liability as a matter of
law.” This line does not even mention “state
sovereignty” or “the Eleventh Amendment.” The issue
of state sovereign immunity was not raised early
enough in the proceedings to provide fair notice to
Plaintiffs. Therefore, to allow Nevada to assert
Eleventh Amendment immunity now would give
Nevada a significant tactical advantage in this
litigation and would “generate seriously unfair results.”
Lapides, 535 U.S. at 619.
Furthermore, the reasoning of Lapides also
supports extending the holding of Embury to cover
cases like this one. As discussed above, the Lapides
Court reasoned:

App. 15
It would seem anomalous or inconsistent for a
State both (1) to invoke federal jurisdiction,
thereby contending that the “Judicial power of
the United States” extends to the case at hand,
and (2) to claim Eleventh Amendment
immunity, thereby denying that the “Judicial
Power of the United States” extends to the case
at hand.
Lapides, 535 U.S. at 619. The Court concluded that the
“general legal principle requiring waiver” when a State
voluntarily invokes judicial authority “ought to apply”
in order to prevent states from “achiev[ing] unfair
tactical advantages.” Id. at 620, 621. “A benign motive,
however, cannot make the critical difference . . . .
Motives are difficult to evaluate, while jurisdictional
rules should be clear.” Id. at 621. Therefore, we
conclude that Lapides’ reasoning supports our holding
that removal means waiver for all federal-law claims in
the case.
Forcing a State to waive sovereign immunity
whenever it removes a case to a federal court might
lead to unfair results for the State in some
circumstances. See Bergemann, 665 F.3d at 342. But
these concerns are not strong enough to overcome the
need for a clear jurisdictional rule. See Lapides, 535
U.S. at 621. A State defendant that removes a case to
federal court waives its immunity from suit on all
federal-law claims brought by the plaintiff. Here,
Nevada waived its Eleventh Amendment immunity
from Plaintiffs’ FLSA claims by removing the case to
federal court.

App. 16
CONCLUSION
For the foregoing reasons, we affirm the district
court’s holding that Nevada waived its Eleventh
Amendment immunity as to Plaintiffs’ FLSA claims
when it removed this case to federal court. In doing so,
we extend the holding of Embury to cover all federallaw claims, even when those federal claims are ones
Congress did not apply to the States through
unequivocal and valid abrogation of their Eleventh
Amendment immunity.4
AFFIRMED.

4

Because we affirm on the waiver-by-removal ground, we do not
address Plaintiffs’ alternate argument that Nevada has waived
sovereign immunity from FLSA claims by enacting Nev. Rev. Stat.
§ 41.031.

App. 17

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15691
D.C. No. CV 14-0320 MMD
[Filed October 16, 2019]
____________________________________
DONALD WALDEN, JR.; NATHAN
)
ECHEVERRIA; AARON DICUS; BRENT
)
EVERIST; TRAVIS ZUFELT; TIMOTHY
)
RIDENOUR; DANIEL TRACY, on
)
behalf of themselves and all others
)
similarly situated,
)
Plaintiffs-Appellees,
)
)
v.
)
)
STATE OF NEVADA; NEVADA
)
DEPARTMENT OF CORRECTIONS,
)
Defendants-Appellants.
)
___________________________________ )
OPINION
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, Chief District Judge, Presiding

App. 18
Argued and Submitted March 13, 2019
San Francisco, California
Filed October 16, 2019
Before: Eugene E. Siler,* A. Wallace Tashima,
and M. Margaret McKeown, Circuit Judges.
Opinion by Judge Tashima
SUMMARY**
Sovereign Immunity
In an interlocutory appeal in a case in which a
group of correctional officers allege, inter alia,
violations of the Fair Labor Standards Act (FLSA), the
panel affirmed the district court’s holding that the
State waived its Eleventh Amendment sovereign
immunity as to the plaintiffs’ FLSA claims when it
removed the case from state court to federal court.
Extending the holding of Embury v. King, 361 F.3d
562 (9th Cir. 2004), the panel held that a State that
removes a case to federal court waives its immunity
from suit on all federal-law claims in the case,
including those federal-law claims that Congress failed
to apply to the states through unequivocal and valid
abrogation of their Eleventh Amendment immunity.

*

The Honorable Eugene E. Siler, United States Circuit Judge for
the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 19
COUNSEL
Richard I. Dreitzer (argued) and James T. Tucker,
Wilson, Elser, Moskowitz, Edelman & Dicker LLP, Las
Vegas, Nevada; Adam Paul Laxalt, Attorney General;
Steve Shevorski, Ketan D. Bhirud, and Theresa M.
Haar, Office of the Attorney General, Las Vegas,
Nevada; for Defendants-Appellants.
Joshua D. Buck (argued), Mark R. Thierman and Leah
L. Jones, Thierman Buck LLP, Reno, Nevada, for
Plaintiffs-Appellees.
OPINION
TASHIMA, Circuit Judge:
Plaintiffs-Appellees (“Plaintiffs”) are a group of
correctional officers who allege violations of the Fair
Labor Standards Act (“FLSA”) by DefendantsAppellants State of Nevada and the Nevada
Department of Corrections (together, “Nevada”).
Nevada removed the case from state court to federal
court, then moved for judgment on the pleadings based
on state sovereign immunity from suit. We have
previously held that a State’s removal of a suit from
state to federal court waives state sovereign immunity
from suit on certain federal-law claims. Embury v.
King, 361 F.3d 562 (9th Cir. 2004). But Embury’s
holding did not cover federal-law claims that Congress
did not apply to the states through unequivocal and
valid abrogation of their Eleventh Amendment
immunity. Id. at 566 n.20. We now hold that a State
that removes a case to federal court waives its
immunity from suit on all federal-law claims in the
case, including those federal-law claims that Congress

App. 20
failed to apply to the states through unequivocal and
valid abrogation of their Eleventh Amendment
immunity.
BACKGROUND
Plaintiffs allege that Nevada has not compensated
them for time that they spent working before or after
scheduled shifts at state prisons and correctional
facilities. Plaintiffs allege wage and overtime claims
under the FLSA, failure to pay minimum wages under
Nevada’s Constitution, failure to pay overtime as
required by Nev. Rev. Stat. § 284.180, and breach of
contract.
Plaintiffs filed this action in state court. Nevada
removed the case to federal court and then answered
the complaint. In its answer, Nevada pleaded the
affirmative defense that “Defendant is immune from
liability as a matter of law,” but did not explicitly
mention state sovereign immunity or the Eleventh
Amendment. Upon Plaintiffs’ motion, the district court
granted conditional certification of the FLSA collective
action and ordered notice be sent to all current and
former non-exempt hourly paid employees who were
employed by the Nevada Department of Corrections as
correctional officers at any time from May 12, 2011 to
the date of the order (March 16, 2015). In total, 542
current and former employees have opted into this
action.
On March 1, 2018, the district court sua sponte
requested supplemental briefing on the issue of
whether “the doctrine of state sovereign immunity
[applied] to the FLSA claims against the State of

App. 21
Nevada as brought in federal court.” This issue had not
been raised at all until this point of the litigation,
almost four years after the complaint was filed and
after significant discovery had been completed,
notwithstanding the affirmative defense Nevada raised
in its answer, that “Defendant is immune from liability
as a matter of law.” In that order, the district court
noted that although the FLSA confers subject-matter
jurisdiction in federal court, the district court might be
“barred from adjudicating the FLSA claims and this
case should be remanded” because “[u]nder Nev. Rev.
Stat. § 41.031(3), the state of Nevada has explicitly
refused to waive its sovereign immunity in suits
brought by state citizens in federal court.”
After supplemental briefing, the district court held
that the State had waived its sovereign immunity as to
Plaintiffs’ FLSA claims, and denied Nevada’s motion to
dismiss those claims. The district court’s discussion of
Nevada’s waiver of sovereign immunity was limited to
a short paragraph:
After reviewing the supplemental briefs . . . , the
Court is convinced that Nevada has waived its
sovereign immunity in this Court. The Supreme
Court has held that a state’s removal of suit to
federal court constitutes a waiver of its Eleventh
Amendment immunity. Lapides v. Bd. of Regents
of Univ. Sys. of Georgia, 535 U.S. 613, 616
(2002). Here, the State of Nevada removed this
action from state court. Therefore, it has waived
its sovereign immunity.

App. 22
The district court also denied Nevada’s motion to
dismiss the FLSA claims, but dismissed Plaintiffs’ Nev.
Rev. Stat. § 284.180 and breach of contract claims. The
parties then stipulated to the dismissal of Plaintiffs’
minimum wage claim under Nevada’s Constitution,
leaving only the FLSA claims which are at issue on this
appeal.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction under the collateral order
doctrine of 28 U.S.C. § 1291. The denial of a State’s
motion for judgment on the pleadings on the grounds of
Eleventh Amendment immunity, although an
interlocutory order, need not await a final judgment to
be appealable. Phiffer v. Columbia River Corr. Inst.,
384 F.3d 791, 792 (9th Cir. 2004).
Under the collateral order doctrine, we have
appellate jurisdiction under § 1291 to consider a State’s
claims of immunity from suit, but there is no such
appellate jurisdiction to consider claims of immunity
from liability. Taylor v. Cty. of Pima, 913 F.3d 930, 934
(9th Cir. 2019). Under Puerto Rico Aqueduct & Sewer
Authority v. Metcalf & Eddy, Inc., 506 U.S. 139, 147
(1993), an ordinary claim of Eleventh Amendment
immunity encompasses a claim of immunity from suit.
But when a State defendant asserting immunity
declares that “it was asserting only immunity from
liability,” then the collateral-order doctrine of § 1291
does not apply and there is no appellate jurisdiction.
Taylor, 913 F.3d at 934. Nevada’s briefing is not clear
whether it is asserting only immunity from liability or
also immunity from suit, as Nevada appears to use
these terms interchangeably. But Nevada clarified at

App. 23
oral argument that it is in fact asserting both
immunity from liability and immunity from suit.
Because Nevada asserts both immunity from liability
and immunity from suit, we have jurisdiction to hear
the appeal. See id.
The existence of sovereign immunity under the
Eleventh Amendment is a question of law reviewed de
novo. Ariz. Students’ Ass’n v. Ariz. Bd. of Regents, 824
F.3d 858, 864 (9th Cir. 2016). Whether immunity has
been waived is also a question of law reviewed de novo.
Sierra Club v. Whitman, 268 F.3d 898, 901 (9th Cir.
2001).
DISCUSSION
The Eleventh Amendment grants a State immunity
from suit in federal court by citizens of other states,
U.S. Const. amend. XI, and by its own citizens as well,
Hans v. Louisiana, 134 U.S. 1 (1890). The question
before us is whether Nevada waived its sovereign
immunity by removing Plaintiffs’ FLSA claims to
federal court.
States can waive their Eleventh Amendment
sovereign immunity from suit in state and federal
court. Lapides v. Bd. of Regents of Univ. Sys. of Ga.,
535 U.S. 613, 618–21 (2002). A State’s decision
voluntarily to invoke the jurisdiction of a federal court
by removing an action from state court to federal court
can waive Eleventh Amendment immunity, but this
general “voluntary invocation” principle does not apply
in all circumstances. Id. Many states statutorily waive
their immunity from suit on state-law claims in state
court. See, e.g., Nev. Rev. Stat. § 41.031. The Supreme

App. 24
Court has held that, when a State that has enacted one
of these statutes voluntarily removes a suit on statelaw claims from state court to federal court, that State
waives its Eleventh Amendment immunity from suit.
Lapides, 535 U.S. at 618–21.
In Lapides, a plaintiff brought a § 1983 and state
tort law action against the State of Georgia in state
court. Id. at 616. The Georgia legislature had passed a
statute expressly waiving Georgia’s sovereign
immunity to state law claims filed in state court. See
id.; Ga. Code Ann. § 50-21-23. Georgia removed the
plaintiff’s suit to federal court and moved to dismiss on
the ground of Eleventh Amendment immunity, even
though it conceded that its own state statute had
waived its sovereign immunity from state-law claims in
state court. Lapides, 535 U.S. at 616.
At the outset of its opinion, the Supreme Court
determined that the sole federal claim in Lapides,
which sought monetary damages under 42 U.S.C.
§ 1983, was invalid because Georgia was “not a ‘person’
against whom a § 1983 claim for money damages might
be asserted.” Id. at 617. Consequently, the Supreme
Court began its opinion by “limit[ing]” its decision to
the peculiar procedural circumstances of that
case—that is, “to the context of state-law claims, in
respect to which the State has explicitly waived
immunity from state-court proceedings.” Id.; see also
id. at 617–18 (emphasizing that the Court did not
“need [to] address the scope of waiver by removal in a
situation where the State’s underlying sovereign
immunity from suit has not been waived or abrogated
in state court”).

App. 25
The Court discussed the consequences of Georgia’s
decision to remove the case:
It would seem anomalous or inconsistent for a
State both (1) to invoke federal jurisdiction,
thereby contending that the “Judicial power of
the United States” extends to the case at hand,
and (2) to claim Eleventh Amendment
immunity, thereby denying that the “Judicial
Power of the United States” extends to the case
at hand.
Id. at 619. Observing that it had previously held that
a “State’s voluntary appearance in federal court
amounted to a waiver of its Eleventh Amendment
immunity,” id. (citing Clark v. Barnard, 108 U.S. 436,
447 (1883)), the Court reasoned that a State similarly
expresses its intent to “voluntarily invoke[ ] the federal
court’s jurisdiction” by “voluntarily agree[ing] to
remove the case to federal court.” Id. at 620. Unable to
discern “something special about removal or about this
case,” the Court concluded that the “general legal
principle requiring waiver” when a State voluntarily
invokes judicial authority “ought to apply” in order to
prevent states from “achiev[ing] unfair tactical
advantages.” Id. at 620, 621. Therefore, under Lapides,
a State that statutorily waives its immunity from suit
on state-law claims in state court also waives its
Eleventh Amendment immunity from suit on the same
state-law claims when it voluntarily removes a statelaw-claim case to federal court. Id. at 624.
The Ninth Circuit built on Lapides in Embury,
holding that a State’s removal of a suit from state court
to federal court waives Eleventh Amendment immunity

App. 26
from suit for certain federal-law claims. In Embury, a
physician sued the Regents of the University of
California in state court for wrongful discharge, in
violation of his due process rights under the federal
and state Constitutions and in violation of state labor
law. 361 F.3d at 563. After the State defendants
removed the case to federal court, the district court
dismissed the case with leave to amend. Id. Embury
then amended his complaint, and defendants again
moved to dismiss, this time asserting Eleventh
Amendment immunity. Id. We “conclude[d] that the
rule in Lapides applies to federal claims as well as to
state law claims and to claims asserted after removal
as well as to those asserted before removal.” Id. at 564.
Noting that the defendants had conceded that they
were stuck with federal jurisdiction over Embury’s
state law claims, we reasoned:
Nothing in the reasoning of Lapides supports
limiting the waiver to the claims asserted in the
original complaint, or to state law claims only.
Indeed, it makes no sense that the State does
not object to having state law questions resolved
by a federal tribunal—where federal jurisdiction
cannot even be obtained but for federal claims
asserted in the same case—yet objects to federal
jurisdiction over the federal claims.
Id. The Embury court stated that it would “instead hold
to a straightforward, easy-to-administer rule in accord
with Lapides: Removal waives Eleventh Amendment
immunity.” Id. at 566.
This case would be definitively controlled by
Embury were it not for a footnote that contains an

App. 27
important limitation to its holding; Embury expressly
did “not decide whether a removing State defendant
remains immunized from federal claims that Congress
failed to apply to the States through unequivocal and
valid abrogation of their Eleventh Amendment
immunity.” Id. at 566 n.20. Congress’ enactment of the
FLSA did not abrogate a State’s sovereign immunity
from suit in federal court. Seminole Tribe of Fla. v.
Florida, 517 U.S. 44, 72–73 (1996); Quillen v. Oregon,
127 F.3d 1136, 1139 (9th Cir. 1997).1 Although many
FLSA protections apply to state employees, see Garcia
v. San Antonio Metro. Transit Auth., 469 U.S. 528
(1985), the Ninth Circuit has held that federal courts
lack jurisdiction over FLSA cases brought against
States in the absence of a waiver of immunity. Quillin,
127 F.3d at 1139. Therefore, this case falls within the
scope of Embury’s Footnote 20, meaning that neither
Lapides nor Embury entirely controls the outcome of
this issue. Because this case involves a statute that
Congress has not applied to the States through

1

In Hale v. Arizona, 993 F.2d 1387 (9th Cir. 1993) (en banc), we
held that “Congress has made unmistakably clear its intention to
apply the FLSA to the States,” and, thus, had “abrogate[d] the
states’ Eleventh Amendment immunity.” Id. at 1391.
Subsequently, however, the Supreme Court held in Seminole Tribe
that “[t]he Eleventh Amendment restricts the judicial power under
Article III, and Article I cannot be used to circumvent the
constitutional limitations placed upon federal jurisdiction.” 517
U.S. at 72–73. Thus, because Hale is “clearly irreconcilable” with
Seminole Tribe, Hale’s holding has been abrogated by Seminole
Tribe. See Miller v. Gammie, 335 F.3d 889, 900 (9th Cir. 2003) (en
banc).

App. 28
unequivocal and valid abrogation, we are faced with an
issue of first impression in the Ninth Circuit.2
Relying on the reasoning of Lapides and Embury,
we now hold that a State defendant that removes a
case to federal court waives its immunity from suit on
all federal-law claims in the case, including those
claims that Congress failed to apply to the States
through unequivocal and valid abrogation of their
Eleventh Amendment immunity. Essentially, we
extend Embury’s “removal means waiver” rule to those
circumstances left open in Footnote 20. In Embury, we
indicated a very strong preference for a clear
jurisdictional rule. 361 F.3d at 566 (“Allowing a State
to waive immunity to remove a case to federal court,
then ‘unwaive’ it to assert that the federal court could
not act, would create a new definition of chutzpah. We
decline to give the State such unlimited leeway, and

2

Other circuits’ approaches to interpreting Lapides are not
uniform. “As a result of the tension between Lapides’s express
limitations on its own holding and [its] general language, courts
are divided on whether Lapides indicates that a State defendant’s
removal to federal court waives its Eleventh Amendment
immunity if the State has not waived its immunity to suit in state
court.” Bodi v. Shingle Springs Band of Miwok Indians, 832 F.3d
1011, 1019 (9th Cir. 2016) (discussing Lapides, but holding that its
waiver-through-removal reasoning does not apply in the context of
tribal immunity). Some circuits have simply opted for a narrow
reading of Lapides. See, e.g., Bergemann v. R.I. Dep’t of Envtl.
Mgmt., 665 F.3d 336, 341 (1st Cir. 2011). Others have read Lapides
to state a more general rule. See, e.g., Bd. of Regents of Univ. of
Wis. Sys. v. Phx. Int’l Software, Inc., 653 F.3d 448, 460–71 (7th Cir.
2011); Meyers ex rel. Benzing v. Texas, 410 F.3d 236, 242 (5th Cir.
2005); Estes v. Wyo. Dep’t of Transp., 302 F.3d 1200, 1205 n.1, 1206
(10th Cir. 2002).

App. 29
instead hold to a straightforward, easy-to-administer
rule in accord with Lapides: Removal waives Eleventh
Amendment immunity.”). Even though Embury’s
footnote expressly left open the question of whether a
removing State defendant remains immunized from
certain federal claims like those under the FLSA,
Embury’s strong preference for a straightforward, easyto-administer rule supports our holding that removal
waives Eleventh Amendment immunity for all federal
claims.
In the context of waiver of state-law claims in
federal court, we have held that, “Eleventh
Amendment immunity is an affirmative defense that
must be raised early in the proceedings to provide fair
warning to the plaintiff.” Aholelei v. Dep’t of Pub.
Safety, 488 F.3d 1144, 1147 (9th Cir. 2007) (internal
quotation marks omitted). “Express waiver is not
required; a state ‘waive[s] its Eleventh Amendment
immunity by conduct that is incompatible with an
intent to preserve that immunity.’” Id. (quoting Ariz. ex
rel. Indus. Comm’n v. Bliemeister (In re Bliemeister),
296 F.3d 858, 861 (9th Cir. 2002)). Here, Nevada only
points to one place in the first four years of active
litigation where it arguably raised the issue of state
sovereign immunity: the line in the Answer that said,
“Defendant is immune from liability as a matter of
law.” This line does not even mention “state
sovereignty” or “the Eleventh Amendment.” The issue
of state sovereign immunity was not raised early
enough in the proceedings to provide fair notice to
Plaintiffs. Therefore, to allow Nevada to assert
Eleventh Amendment immunity now would give
Nevada a significant tactical advantage in this

App. 30
litigation and would “generate seriously unfair results.”
Lapides, 535 U.S. at 619.
Furthermore, the reasoning of Lapides also
supports extending the holding of Embury to cover
cases like this one. As discussed above, the Lapides
Court reasoned:
It would seem anomalous or inconsistent for a
State both (1) to invoke federal jurisdiction,
thereby contending that the “Judicial power of
the United States” extends to the case at hand,
and (2) to claim Eleventh Amendment
immunity, thereby denying that the “Judicial
Power of the United States” extends to the case
at hand.
Lapides, 535 U.S. at 619. The Court concluded that the
“general legal principle requiring waiver” when a State
voluntarily invokes judicial authority “ought to apply”
in order to prevent states from “achiev[ing] unfair
tactical advantages.” Id. at 620, 621. “A benign motive,
however, cannot make the critical difference . . . .
Motives are difficult to evaluate, while jurisdictional
rules should be clear.” Id. at 621. Therefore, we
conclude that Lapides’ reasoning supports our holding
that removal means waiver for all federal-law claims in
the case.
Forcing a State to waive sovereign immunity
whenever it removes a case to a federal court might
lead to unfair results for the State in some
circumstances. See Bergemann, 665 F.3d at 342. But
these concerns are not strong enough to overcome the
need for a clear jurisdictional rule. See Lapides, 535

App. 31
U.S. at 621. A State defendant that removes a case to
federal court waives its immunity from suit on all
federal-law claims brought by the plaintiff. Here,
Nevada waived its Eleventh Amendment immunity
from Plaintiffs’ FLSA claims by removing the case to
federal court.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s holding that Nevada waived its Eleventh
Amendment immunity as to Plaintiffs’ FLSA claims
when it removed this case to federal court. In doing so,
we extend the holding of Embury to cover all federallaw claims, even when those federal claims are ones
Congress did not apply to the States through
unequivocal and valid abrogation of their Eleventh
Amendment immunity.3
AFFIRMED.

3

Because we affirm on the waiver-by-removal ground, we do not
address Plaintiffs’ alternate argument that Nevada has waived
sovereign immunity from FLSA claims by enacting Nev. Rev. Stat.
§ 41.031.

App. 32

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
***
Case No. 3:14-cv-00320-MMD-WGC
[Filed March 26, 2018]
_________________________________
DONALD WALDEN JR., et al.,
)
Plaintiffs,
)
)
v.
)
)
STATE OF NEVADA, ex rel.
)
NEVADA DEPARTMENT OF
)
CORRECTIONS, and DOES 1-50, )
Defendants.
)
________________________________ )
ORDER
I.

SUMMARY

This action concerns alleged failures to compensate
Nevada Department of Corrections (“NDOC”)
employees under federal and state law. This Order
addresses two motions that are currently pending
before the Court: (1) Defendant State of Nevada ex rel.
NDOC’s Motion to Strike Plaintiffs’ Third, Fourth, and
Fifth Causes of Action in the First Amended Complaint
(“Motion to Strike”) (ECF No. 98); and, (2) Defendant’s

App. 33
Motion to Dismiss Plaintiffs’ First Amended Collective
and Class Action Complaint (“Motion to Dismiss”) (ECF
No. 99). Plaintiffs filed responses to both motions (ECF
Nos. 104, 105) and Defendant replied (ECF Nos. 111,
112).
For the reasons discussed herein, the Motion to
Strike is denied and the Motion to Dismiss is granted
in part and denied in part.
II.

JURISDICTION

The Court issued an order on March 1, 2018, asking
the parties to file supplemental briefs to address
whether the State of Nevada has waived its sovereign
immunity as to the Fair Labor Standards Act (“FLSA”)
claims in this action.1 (ECF No. 147.) After reviewing
the supplemental briefs (ECF Nos. 149, 158), the Court
is convinced that Nevada has waived its sovereign
immunity in this Court. The Supreme Court has held
that a state’s removal of suit to federal court
constitutes a waiver of its Eleventh Amendment
immunity. Lapides v. Bd. Of Regents of Univ. Sys. Of
Georgia, 535 U.S. 613, 616 (2002). Here, the State of
Nevada removed this action from state court.
Therefore, it has waived its sovereign immunity.

1

This Court has federal question jurisdiction over those claims and
therefore is able to exercise supplemental jurisdiction over the
three remaining state law claims.

App. 34
III.

BACKGROUND
A. Relevant Procedural History

This action was initiated May 12, 2014, in the First
Judicial District Court of the State of Nevada in and for
Carson City. (ECF No. 1 at 7-21 (Exh. A).) It was
timely removed on June 17, 2014, on the basis of
federal question jurisdiction, 28 U.S.C. § 1331. (ECF
No. 1 at 2.) The Court granted conditional certification
of the class in March 2015. (ECF No. 45.) On April 13,
2016, Defendant filed a motion for judgment on the
pleadings (ECF No. 86), which this Court granted in
part on March 20, 2017. (ECF No. 94.) In that order,
the Court dismissed the FLSA claims with leave to
amend and correct the deficiencies with those claims as
identified in light of the Ninth Circuit’s recent decision
in Landers v. Quality Commc’n, Inc., 771 F.3d 638 (9th
Cir. 2014), as amended (Jan. 26, 2015), cert. denied,
135 S. Ct. 1845 (2015). (ECF No. 94 at 4-5.) In Landers,
the court stated that “at a minimum, a plaintiff
asserting a violation of the FLSA overtime provisions
must allege that she worked more than forty hours in
a given workweek without being compensated for the
hours worked in excess,” and may estimate “the length
of her average workweek during the applicable period
and the average rate at which she was paid, the
amount of overtime wages she believes she is owed, or
any other facts that will permit the court to find
plausibility.” 771 F.3d at 645. The Court did not
address Defendant’s arguments concerning Plaintiff’s
state law claims in light of the fact that it no longer
had jurisdiction to consider those claims once the FLSA
claims were dismissed, and so the Court dismissed the

App. 35
state law claims without prejudice. (Id. at 5.) Plaintiffs
filed their First Amended Complaint (“FAC”) on
April 19, 2017. (ECF No. 95)
B. Relevant Facts
The following facts are taken from the FAC (ECF
No. 95) unless otherwise indicated.
Plaintiffs are individuals who were or are employed
with NDOC as non-exempt hourly correctional officers.
Plaintiffs are or have been employed at various NDOC
facilities including Southern Desert Correctional
Center (“SDCC”), High Desert State Prison (“HDSP”),
Northern Nevada Correctional Center (“NNCC”), Ely
State Prison (“ESP”), and Women’s Correctional Center
(“WCC”). For all relevant times, NDOC maintained a
time recording system for employees referred to as
NEATS, which recorded only exceptions to scheduled
work hours as well as any workweeks in which a
plaintiff or class member worked less or more than the
scheduled work times. (ECF No. 95 at ¶ 16.)
Generally, Plaintiffs were required to and did work
a forty-hour workweek. If Plaintiffs worked “an
alternative variable workweek schedule,” they were
required to work and did work eighty hours in a twoweek period. (ECF No. 95 at ¶ 15.) As a matter of
policy, Plaintiffs were only compensated for regularly
scheduled shift times at their work stations. However,
Plaintiffs were required to perform tasks before and
after their shifts (commonly referred to as
“preliminary” and “postliminary” activities). They claim
that they were not compensated for these activities. As
for preliminary activities, Plaintiffs identify the

App. 36
following activities: (1) reporting to the supervisor or
sergeant on duty to check in; (2) receiving assignments
for the day; (3) having their uniforms inspected;
(4) collecting any and all tools needed for daily
assignments, such as radios, keys, weapons, tear gas,
handcuffs; (5) proceeding to their designated work
stations; and (6) receiving debriefing from the outgoing
correctional officer. Plaintiffs refer to the first four
activities as “muster.” (ECF No. 95 at ¶ 31.) Plaintiffs
contend that traveling to their designated work
stations could take up to fifteen minutes or more per
employee per shift. Plaintiffs also state that only after
receiving briefing/instructions from the prior
correctional officer at their work stations did a
plaintiff’s scheduled shift time begins. As to
postliminary activities, Plaintiffs were required to
conduct mandatory debriefing with the oncoming
correctional officer then return to the main office to
return various tools they had attained for the day and
drop off or complete paperwork.
Plaintiffs estimate that on average they performed
“upwards to 30-minutes of compensable work before
their regularly scheduled shifts, each and every shift
worked, for which they were not paid” and “upwards to
15 minutes of compensable work after their regularly
scheduled shifts, each and every shift worked, for
which they were not paid.” (ECF No. 95 at ¶¶ 20, 22.)
The FAC identifies at least one workweek where each
Plaintiff worked over forty hours in a workweek or over
eighty hours in a work period and were not paid
overtime for pre- and post-shift activities. Specifically:

App. 37
• Walden alleges he worked 3.75 hours of overtime
at an average hourly rate of $23.50 and is owed
$132.19 for each workweek during the pay
period between January 7 through January 20,
2013;
• Echeverria alleges he worked 3.75 hours of
overtime at an average hourly rate of $23.50 and
is owed $132.19 for each workweek during the
pay period between September 30 and
October 13, 2013;
• Dicus alleges he worked 3.75 hours of overtime
at an average hourly rate of $21.17 and is owed
$119.110 for each workweek during the pay
period between January 16 and January 29,
2017;
• Everist alleges he worked 3.75 hours of overtime
at an average hourly rate of $22.80 and is owed
$128.252 for each workweek during the pay
period between January 20 and February 2,
2014;
• Zufelt alleges he worked 3.75 hours of overtime
at an average hourly rate of $22.00 and is owed
$123.75 for each workweek during the pay
period between March 26 and April 9, 2017;
• Redenour alleges he worked 5.25 hours of
overtime at an average hourly rate of $24.00 and

2

This number appear to be based on an average hourly rate of
$25.65. (ECF No. 95 at ¶ 47(e).) It is unclear whether the actual
average hourly rate of pay for Everist was $22.80 or $25.65.

App. 38
is owed $189 for the pay period between
November 26 and December 9, 2012; and,
• Tracy alleges he worked 3.75 hours of overtime
at an average hourly rate of $26.00 and is owed
$146.25 for each workweek during the pay
period between March 17 through March 30,
2014.
(ECF No. 95 at ¶¶ 44(c), 45(e), 46(f),3 47(e), 48(h), 49(g),
50(g).) Each Plaintiff also identifies how much they
believe they are owed in overtime per year worked.
Specifically:
• Walden alleges he is owed $6,345.60 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year;
• Echeverria alleges he is owed $6,345.60 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year;
• Dicus alleges he is owed $ 5,716.80 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year;
• Everist alleges he is owed $6,156.00 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year;
• Zufelt alleges he is owed $5,940.00 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year;

3

There are two paragraphs labelled “46(f)” in the FAC.

App. 39
• Redenour alleges he is owed $6,480.00 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year; and,
• Tracy alleges he is owed $7,020.00 per year
worked based on .75 hours of overtime per shift
and 240 shifts per year.
(ECF No. 95 at ¶¶ 44(c), 45(e), 46(f), 47(e), 48(h), 49(g),
50(g).)
The FAC contains five claims for relief: (1) failure to
pay wages in violation of FLSA; (2) failure to pay
overtime wages in violation of FLSA; (3) failure to pay
wages in violation of the Nevada Constitution’s
Minimum Wage Amendment (“MWA”); (4) failure to
pay overtime wages in violation of NRS § 284.180; and
(5) breach of contract.
IV.

MOTION TO STRIKE (ECF No. 98)

Defendant moves to strike the FAC’s state law
claims pursuant to Fed. R. Civ. P. 12(f) because the
claims are “redundant, immaterial, and impertinent”
and because Plaintiffs “provide no basis for ignoring
the Court’s prior order.” (ECF No. 98 at 4.) Plaintiffs
respond that the “Court’s prior order did not dismiss
Plaintiffs’ state law claims with prejudice so there is no
issue with re-pleading those claims” and that the
arguments in the Motion to Strike are redundant based
on Defendant’s Motion to Dismiss. (ECF No. 104 at 1,
3.) The Court agrees with Plaintiffs.
Under Rule 12(f), the Court may “strike from any
pleading an insufficient defense or any redundant,
immaterial, impertinent, or scandalous matter.” While

App. 40
the Court may strike redundant, immaterial, or
impertinent matters in a pleading, it cannot strike a
claim for relief. See Whittlestone, Inc. v. Handi-Craft
Co., 618 F.3d 970, 974 (9th Cir. 2010) (“were we to read
Rule 12(f) in a manner that allowed litigants to use it
as a means to dismiss some or all of a pleading . . . , we
would be creating redundancies within the Federal
Rules of Civil Procedure[] because a Rule 12(b)(6)
motion . . . already serves such a purpose.”) Thus,
generally Rule 12(f) is the improper vehicle for
dismissing or removing certain claims from a
complaint.
Moreover, Defendant’s contention that Plaintiffs did
not comply with the Court’s prior order is unavailing.
In its prior order, the Court specifically dismissed the
two state law claims without prejudice because it no
longer had jurisdiction to consider Defendant’s
arguments relating to these claims once the Court
dismissed the federal law claims. (See ECF No. 94 at
5.) Thus, Plaintiffs were not barred from reasserting
their state law claims or asserting new ones, and
nothing in the Court’s prior order supports Defendant’s
reading that Plaintiffs were barred from doing so.
The Motion to Strike is therefore denied.
V.

MOTION TO DISMISS (ECF No. 99)

Defendant makes five arguments in support of
dismissing the FAC: (1) accepting Plaintiffs’ allegations
as true, each earned more than $7.25 per hour and
therefore the FAC fails to state a violation of the
FLSA’s minimum wage requirement; (2) Plaintiffs
failed to plead any facts to establish a nexus between

App. 41
assertions that they were uncompensated for 45
minutes of pre- and post-shift activities, especially in
light of the uniqueness of their jobs, the different size
of the NDOC facilities, and the different tools each had
to use for their positions; (3) the MWA does not apply
to government employees; (4) Plaintiffs’ NRS § 284.180
claim lacks merit because Plaintiffs failed to exhaust
their administrative remedies prior to filing suit; and
(5) Plaintiffs’ breach of contract claim should be
dismissed because Plaintiffs’ employment with NDOC
is statutory, not contractual, and no actual contract is
identified as having been breached. (ECF No. 99 at 2.)
A. Legal Standard
A court may dismiss a plaintiff’s complaint for
“failure to state a claim upon which relief can be
granted.” Fed. R. Civ. P. 12(b)(6). A properly pled
complaint must provide “a short and plain statement of
the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8(a)(2); Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 555 (2007). While Rule 8 does not require
detailed factual allegations, it demands more than
“labels and conclusions” or a “formulaic recitation of
the elements of a cause of action.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (citing Twombly, 550 U.S. at 555.)
“Factual allegations must be enough to rise above the
speculative level.” Twombly, 550 U.S. at 555. Thus, to
survive a motion to dismiss, a complaint must contain
sufficient factual matter to “state a claim to relief that
is plausible on its face.” Iqbal, 556 U.S. at 678 (internal
citation omitted).
In Iqbal, the Supreme Court clarified the two-step
approach district courts are to apply when considering

App. 42
motions to dismiss. First, a district court must accept
as true all well-pled factual allegations in the
complaint; however, legal conclusions are not entitled
to the assumption of truth. Id. at 678-79. Mere recitals
of the elements of a cause of action, supported only by
conclusory statements, do not suffice. Id. at 678.
Second, a district court must consider whether the
factual allegations in the complaint allege a plausible
claim for relief. Id. at 679. A claim is facially plausible
when the plaintiff’s complaint alleges facts that allow
a court to draw a reasonable inference that the
defendant is liable for the alleged misconduct. Id. at
678. Where the complaint does not permit the court to
infer more than the mere possibility of misconduct, the
complaint has “alleged—but it has not show[n]—that
the pleader is entitled to relief.” Id. at 679 (internal
quotation marks omitted). When the claims in a
complaint have not crossed the line from conceivable to
plausible, the complaint must be dismissed. Twombly,
550 U.S. at 570. A complaint must contain either direct
or inferential allegations concerning “all the material
elements necessary to sustain recovery under some
viable legal theory.” Twombly, 550 U.S. at 562 (quoting
Car Carriers, Inc. v. Ford Motor Co., 745 F.2d 1101,
1106 (7th Cir. 1989) (emphasis in original)).
The Court takes judicial notice of the NDOC
Variable Work Schedule Request form. (ECF No. 95-5).
The document is incorporated by reference in the FAC
and attached to it, and there is no dispute about its
authenticity. See Coto Settlement v. Eisenberg, 593 F.3d
1031, 1038 (9th Cir. 2010) (considering documents
outside the pleadings n a motion to dismiss “where the
complaint necessarily relies upon [the] document or the

App. 43
contents of the document are alleged in a complaint,
the document’s authenticity is not in question and
there are no disputed issues as to the document’s
relevance”.
B. Straight Time Claim
In responding to Defendant’s contention that the
FAC fails to state a violation of the FLSA’s minimum
wage requirement, Plaintiffs point out that their first
claim is not a minimum wage claim; rather, it is a
straight time claim. (ECF No. 105 a 17.) Defendant
does not address whether a “straight time” claim
should be dismissed in its reply and instead states that
“Plaintiffs are improperly seeking to amend their
complaint via their opposition,” as the Court’s prior
order granting leave to amend did not include language
permitting a new “straight time claim.” (ECF No. 112
at 4.) However, in light of Plaintiffs’ clarification that
they are asserting a failure to pay wages claim, the
Court will permit the claim to proceed.4 Defendant’s
Motion to Dismiss is therefore denied as to Plaintiffs’
first claim.
C. Overtime Claim
As to the overtime claim, Defendant makes two
independent arguments: first, the FAC’s allegations
regarding Defendant’s failure to pay overtime does not

4

To the extent the parties argue about whether this failure to pay
wages claim encompasses a gap time claim (see ECF No. 105 at 1820; see also ECF No. 112 at 8-9), this requires the Court to assess
the actual evidence in this case, which it will not do at the motion
to dismiss stage.

App. 44
meet the specificity requirements of Landers; and
second, the facts as alleged are insufficient to
demonstrate that the pre- and post-shift tasks are
compensable under the FLSA. (ECF No. 99 at 9-15.)
The Court disagrees and finds that this claim should
proceed.
1. Landers
In Landers, the Ninth Circuit stated that “at a
minimum, a plaintiff asserting a violation of the FLSA
overtime provisions must allege that she worked more
than forty hours in a given workweek without being
compensated for the hours worked in excess of forty
during that week,” and that a “plaintiff may establish
a plausible claim by estimating the length of her
average workweek during the applicable period and the
average rate at which she was paid, the amount of
overtime wages she believes she is owed, or any other
facts that will permit the court to find plausibility.”
Landers, 771 F.3d at 645. Defendant states that “not
one individual plaintiff [in this action] pled any facts to
satisfy Landers,” yet goes on to argue about the
plausibility of the factual allegations in the FAC. For
example, Defendant states that “plaintiffs unjustifiably
ask this Court to assume it takes the same amount of
time for each person to . . . pick up their tools[] and
report to their post . . . regardless of profession, facility,
location or other factors.” (ECF No. 99 at 10.) However,
at the motion to dismiss stage, the Court is required to
accept all well-pled factual allegations as true. Thus, to
the extent any of those factual allegations appear to
lack plausibility, Defendants are asking this Court to

App. 45
look beyond the pleadings,5 which it will not do at this
stage.6 Plaintiffs remedied the previous deficiencies in
their complaint by identifying the applicable time
period, identifying a given workweek with the hours
above forty hours for which each Plaintiff was not
compensated, and the amount each Plaintiff believes
they are owed in overtime wages for each year worked.
This is sufficient to satisfy Landers.

5

In fact, Defendant attached various exhibits to its motion to
dismiss in support of its contention that the alleged facts are not
accurate or plausible. The Court need not consider these exhibits
at the dismissal stage unless it is able to take judicial notice of
them.
6

Therefore, despite the fact that two of the exhibits attached to the
FAC deal with specific prisons (ECF Nos. 95-3, 95-4), the FAC
appears to use them as examples or as support in an attempt to
buttress the factual allegations in the FAC. For instance,
Operational Procedure 320, which applies to SDCC, appears to be
used as an example (ECF No. 95 at ¶ 39), while the testimony of
Warden Williams appears to have been used to support the
contention that, in order to complete preliminary tasks,
correctional officers would need more than ten minutes if not
thirty minutes to do so (id. at ¶ 34). Defendant takes issue with the
use of Williams’ testimony as a misrepresentation in the FAC since
he was the warden of SDCC only (see ECF No. 99 at 6); however,
the Court does not assume the veracity of Williams’ statements or
assume their applicability to all class representatives in this case.
Moreover, Williams’ own observation does not establish that these
activities were required; rather, the FAC’s mere contention that
these activities were required by NDOC and must be completed
before the start of Plaintiffs’ shifts (see, e.g., ECF No. 95 at ¶¶ 14,
18) is a factual allegation the Court must assume to be true for
purposes of ruling on Defendant’s Motion to Dismiss.

App. 46
The Motion to Dismiss is therefore denied as to
Plaintiff’s claim for failure to pay wages in violation of
the FLSA.
2. Pre- and Post-Shift Activities as
Compensable Work
“It is axiomatic, under the FLSA, that employers
must pay employees for all hours worked.” Alvarez v.
IBP, Inc., 339 F.3d 894, 902 (9th Cir. 2003), aff’d on
other grounds sub nom. IBP, Inc. v. Alvarez, 546 U.S.
21 (2005) (citations and internal quotation marks
omitted). The Ninth Circuit requires a “three-stage
inquiry” to determine if certain activities are
compensable under the FLSA. Bamonte v. City of Mesa,
598 F.3d 1217, 1224 (9th Cir. 2010). First, the activity
must be considered “work” second, the activity must be
“integral and indispensable” to the principal work
performed; and, third, the activity must not be de
minimus. Id. (citing to Alvarez, 339 F.3d at 902-03).
The Portal-to-Portal Act “narrowed the coverage of the
FLSA slightly by excepting two activities that had been
treated as compensable under [prior Supreme Court]
cases: walking on the employer’s premises to and from
the actual place of performance of the principal activity
of the employee, and activities that are ‘preliminary or
postliminary’ to that principal activity.” IBP, 546 U.S.
at 27. However, the Supreme Court has held that a
preliminary or postliminary activity is compensable if
it is integral and indispensable to an employee’s
principal activities, meaning “if it is an intrinsic
element of those activities and one with which the
employee cannot dispense if he is to perform his

App. 47
principal activities.” Integrity Staffing Sol., Inc. v.
Busk, 135 S. Ct. 513, 517 (2014).
Defendant first argues that the FAC’s allegations
fail to show that Plaintiffs’ pre-and post-shift activities
are “work” under the FLSA. While the FLSA does not
define the term “work,” the Supreme Court has defined
work as “physical or mental exertion (whether
burdensome or not) controlled or required by the
employer and pursued necessarily and primarily for the
benefit of the employer.” See Armour & Co. v. Wantock,
323 U.S. 126, 132 (1944). Defendant argues that
Plaintiffs: “do not allege that NDOC requires when
each officer is required to perform” the identified
activities or that NDOC required them to do these
activities “off-the-clock”; do not allege in the FAC that
there are “differences in the time when Plaintiffs are
required to report to the prison [versus] when they are
required to report to their assigned posts for the day”;
“arrive early for their own convenience or the
convenience of fellow employees”; and fail to allege
sufficient facts to show that NDOC derives any benefits
from these activities because “[p]resumably, NDOC’s
respective prisons still have officers on duty.” (ECF No.
99 at 12-14.) However, the Court is able to reasonably
infer from the allegations in the FAC that NDOC
required these activities to be performed “without
compensation” and therefore off the clock; that these
activities were required to be performed before the
start of regularly scheduled shifts and after the end of
regularly scheduled shifts; and that Plaintiffs arrived
early to complete these preliminary tasks because
NDOC required them to do so. (See, e.g., ECF No. 95 at
¶¶ 19-22.) Moreover, if the Court assumes as true that

App. 48
NDOC requires Plaintiffs to perform these tasks, it is
reasonable to infer that NDOC derives some benefit
from these activities, ostensibly by ensuring that
incoming correctional officers are prepared to deal with
any safety or security issues that may arise during
their shifts.7 (See ECF No. 95 at ¶31 (“Officers were
required to report to their shift supervisor because
correctional officers’ assignments can change from day
to day based on the needs of the institution” and other
things “such as security issues, lockdown situations,
changes in rules, and inmate problems”); see also id. at
¶ 33 (both supervisor and outgoing officer briefings
were necessary because they were the source for
security information for both the entire facility and the
specific post); see also ECF No. 99 at 14 (Defendant
admitting that the “benefit NDOC derives from its
officers is the safety and security of the prison”).)
Defendant next argues that the FAC fails to identify
how the pre- and post-shift activities are intrinsic to
the job of guarding a prison and that the Court may not
“presume the facts necessary to establish the
sufficiency of Plaintiffs’ allegations.” (ECF No. 99 at
15.) However, the Court is able to reasonably infer from
the factual allegations in the FAC as well as from
common sense why these activities are “an intrinsic
element” of a correctional officer’s principal activities
and “ones with which the employee cannot dispense if

7

For example, by briefing an incoming officer so that he is aware
of any inmates on the officer’s block that have been having
behavioral or disciplinary issues, or by ensuring that incoming
officers have proper tools to communicate with other officers and
protect the prison during their shift.

App. 49
he is to perform his principal activities.” See Busk, 135
S. Ct. at 517. As to the purported requisite preliminary
activities of check-in and receipt of assignments, “a law
enforcement entity cannot ensure the safety of the
population it oversees without (1) knowing who is
present at a given time and (2) dispatching those that
are present to attend to the greatest need.” (ECF No.
105 at 12.) Moreover, “a correctional officer simply
cannot perform his required job duties without first
knowing where to go (whether to the exercise yard or to
transport an inmate) nor can he perform his job
effectively without knowing whether there is any
potential dangerous situation developing amongst the
inmates (such as a gang related issue or hunger
strike).” (ECF No. 105 at 14.) The activities of check-in
and receipt of assignments are therefore necessary to
perform the officer’s principal duties of safeguarding
the prison during his shift.
As to the preliminary activity of retrieving tools and
gear, correctional officers need specific items in order
to perform assigned duties, for instance, handcuffs to
transport inmates or tear gas to quell a potential riot.
(See ECF No. 105 at 14.) Retrieving tools and gear, as
described in the FAC (ECF No. 95 at ¶ 32), is
distinguishable from the example Defendant identifies
in its motion of “polishing shoes, boots and duty belts,
cleaning radios and traffics vests, and oiling
handcuffs.” (ECF No. 99 at 15 (citing Musticchi v. City
of Little Rock, Ark., 734 F. Supp. 2d 621, 630-32 (E.D.
Ark. 2010)).) As alleged, Plaintiffs are not cleaning
gear; they are retrieving gear that is “necessary and
required to complete their daily job tasks”—tasks
which they are informed of only once they arrive at the

App. 50
prison and receive a work assignment from their
supervisor. (See ECF No. 95 at ¶ 32.) As alleged, this
activity is therefore indispensable to the officer’s
principal duties.
As to the preliminary activity of uniform inspection,
the FAC contends that “if [a correctional officer’s]
uniform was not up to standards” then the officer
“could not proceed to their post[].”(ECF No. 95 at
¶ 31(b).) Defendant argues that because a uniform can
be put on at home, this activity is not compensable
under FLSA. (ECF No. 112 at 7 (citing Balestrieri v.
Menlo Park Fire Protection Dist., 800 F.3d 1094, 1100
(9th Cir. 2015)).) However, Plaintiffs do not contend
that it is putting on a uniform at work that is
compensable; rather, they state that uniform inspection
by an officer’s shift supervisor is a component of
“muster”and is therefore compensable because it is
required. (See ECF No. 95 at ¶ 31(b).) While the time
spent by a supervisor visually inspecting an officer’s
uniform may itself be de minimus, it is a purported
component of “muster” and therefore part of a
continuous workday activity that is integral to the
officer’s principal duty of ensuring the safety of the
prison and monitoring its inmates.
As to the preliminary activity of walking from
check-in, receipt of assignment, and tool collection to
an officer’s assigned post for the day, this activity is
compensable under the “continuous workday doctrine.”
See IBP, Inc., 546 U.S. at 37 (“[D]uring a continuous
workday, any walking time that occurs after the
beginning of the employee’s first principal activity and
before the end of the employee’s last principal activity

App. 51
is excluded [from the Portal-to-Portal Act’s travel
exemption], and as a result is covered by FLSA.”)
As to the postliminary activity of outgoing
correctional officers briefing incoming officers, this is
similarly necessary to the safety and security of the
prison, and is an integral part of the officers’ principal
duties. (ECF No. 106 at 16-17.) Finally, as to the
postliminary activities of walking back to and
returning any tools or gear taken by an officer, the
allegations in the FAC permit the Court to reasonably
infer that Plaintiffs were not allowed to take these tools
and gear home with them and so were required to
return them. As Plaintiffs are purportedly required to
take these tools and gear before starting their shifts in
order to perform their assigned duties, the
postliminary activity of returning tools or gear is also
indispensable to their principal duties during their
shifts.
Defendant also argues that these activities are de
minimus and again asserts that the factual allegations
in the FAC are implausible (see, e.g., ECF No. 112 at 6,
7 (“surely de-briefing and returning tools must take
less than a minute as plaintiffs must walk back the
same way they came” and “[t]here is no factual basis
for this Court to even attempt to estimate such time for
‘walking to post’ since plaintiffs admit in their
complaint they all worked at different facilities and in
different locations in those facilities”)). The Court,
however, does not quibble about the plausibility of facts
when doing so would require this Court to look at
evidence outside the pleadings. What is sufficient at
this stage of the litigation is that there is a scope of

App. 52
activities that employees must perform, that these
activities are integral and indispensable to their
positions as prison guards, and that the factual
allegations are that these activities generally take 45
minutes to perform “off the clock.” The Court therefore
finds that the FAC’s allegations permit this Court to
make the reasonable inference that these activities, as
alleged, are not de minimis.
Defendant’s Motion to Dismiss is therefore denied
as to Plaintiff’s claim for violation of the FLSA’s
overtime provision.
D. Minimum Wage Amendment Claim
It is unclear from the plain language of the MWA
whether “other entity” applies to the state government.
The MWA states in relevant part that an “employer” is
any “other entity that may employ individuals.” Nev.
Const., art. 15, § 16, cl. 7. Defendant contends that the
MWA does not apply to it because NRS Chapter 284
governs the relationship between the State of Nevada
and its employees. (See ECF No. 99 at 17-19.) Plaintiffs
respond that the state government is not identified as
one of the entities exempt from the MWA and that the
MWA superseded NRS Chapter 284. (See ECF No. 105
at 20-23.) Resolution of this matter requires the Court
to interpret state law; therefore, the Court questions
whether certification of the issue to the Nevada
Supreme Court is warranted.
The Court therefore denies Defendant’s Motion to
Dismiss as to this claim without prejudice and directs
supplemental briefing as to whether this issue should

App. 53
be certified and the effect of certification on the
remaining claims in this action.
E. NRS § 284.180 Claim
Defendant argues that Plaintiff has failed to plead
facts demonstrating they have exhausted the
administrative requirements of NRS Chapter 284.
(ECF No. 99 at 19-20.) Specifically, this process
requires that claimants first file a grievance regarding
issues of compensation or working hours, that they
then appeal the decision regarding their grievance to
the Employee Management Committee (“EMC”), and
that, if still unsatisfied, they obtain judicial review of
EMC’s decision by filing a petition within 30 days. See
NRS §§ 284.384, 233B.130(2)(d). Plaintiffs respond that
they do not need to exhaust the administrative process
and have a “direct private right of action to enforce the
overtime provisions contained in NRS [§] 284.180”
(ECF No. 105 at 23) because NRS § 284.195 provides:
Any person employed or appointed contrary to
the provisions of this chapter and the rules and
regulations thereunder whose payroll or account
is refused certification shall have an action
against the appointing authority employing or
appointing or attempting to employ or appoint
the person for the amount due by reason of such
employment or purported employment, and the
costs of such action.
However, Plaintiffs are wrong. NRS § 284.195 applies
where an “employee” has been appointed to a position
of employment by an “appointing authority” where the
appointment of the employee is “contrary to law and

App. 54
regulation” and payroll certification does not occur.
That unlawfully appointed “employee” then may sue
the “appointing authority” and not the State of Nevada,
see NRS § 284.190(2) & (3), for the amount that
“employee” is owed based on any work she performed,
and she may initiate a private right of action without
going through the administrative grievance process
normally required of state employees.
Failure to exhaust state administrative remedies is
claim-dispositive and, therefore, state law applies in
determining whether a claim for violation of NRS
§ 284.180 is justiciable in this Court. See Hanna v.
Plumer, 380 U.S. 460, 467 (1965) (“The Erie rule is
rooted in part in a realization that it would be unfair
for the character of result of a litigation materially to
differ because the suit had been brought in a federal
court.”). Because the Nevada Supreme Court has found
that such a claim is not ripe for judicial review unless
all state administrative remedies have been exhausted,
see City of Henderson v. Kilgore, 131 P.3d 11, 14-15
(Nev. 2006), this Court will follow Nevada’s lead and
will not address the claim.
Therefore, the claim for violation of NRS § 284.180
is dismissed without prejudice.
F. Breach of Contract
Defendant argues in relevant part that NDOC’s
Variable Work Schedule Request form (“Variable
Request Form”) is not an employment agreement and
is instead a document simply giving employees the
choice of working either a forty-hour workweek over
the course of five days or an eighty-hour workweek over

App. 55
the course of fourteen days. (ECF No. 99 at 20-21; see
also ECF No. 95-5 at 2.) Plaintiffs state that “Plaintiffs’
breach of contract claim is premised upon the
determination that the pre- and post-shift work is
compensable under federal and state law.”(ECF No.
105 at 23.) They go on to state that the “agreements
were those that correctional officers would be
compensated overtime when they worked over 40 hours
in a workweek or over 80 hours in a biweekly pay
period, depending on the variable work schedule the
employee chose.” (Id.) Based on the FAC, this
“agreement” appears to be the Variable Request Form.
(See ECF No. 95 at ¶95 (“Defendant had an agreement
with Plaintiffs and with every Class Member under the
Nevada Department of Corrections Variable Work
Schedule to pay overtime”).)
The Variable Request Form, however, is clearly an
agreement to work a variable schedule in a workweek,
not an agreement or contract to pay overtime. To the
extent the Variable Request Form states that overtime
will be paid under NRS § 284.180, this is merely a
statement of what the law requires of Defendant. The
Court therefore finds that the Variable Request Form
is not a contract to pay overtime wages to Plaintiffs.
The Court therefore dismisses the breach of contract
claim.
VI.

CONCLUSION

The Court notes that the parties made several
arguments and cited to several cases not discussed
above. The Court has reviewed these arguments and
cases and determines that they do not warrant

App. 56
discussion as they do not affect the outcome of
Defendant’s motions.
It is therefore ordered that Defendant’s Motion to
Strike (ECF No. 98) is denied.
It is further ordered that Defendant’s Motion to
Dismiss (ECF No. 99) is granted in part and denied in
part. It is granted as to Plaintiffs’ claim for violation of
NRS § 284.180 and Plaintiffs’ claim for breach of
contract. It is denied as to Plaintiff’s remaining claims
and is denied without prejudice as to Plaintiffs’ claim
for violation of the Minimum Wage Amendment.
It is further ordered that the parties are to file
supplemental briefs of no more than five (5) pages each
within seven (7) days of this order to explain if
certification of the question whether the Minimum
Wage Amendment applies to state government
employees is warranted and what effect certification
would have on the remaining claims in this action.
DATED THIS 26th of March 2018.
/s/ Miranda M. Du
MIRANDA M. DU
UNITED STATES DISTRICT JUDGE

